<html>
<title> - H.R. 2906, TO FACILITATE FAMINE RELIEF EFFORTS AND A COMPREHENSIVE SOLUTION TO THE WAR IN SUDAN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





  H.R. 2906, TO FACILITATE FAMINE RELIEF EFFORTS AND A COMPREHENSIVE 
                      SOLUTION TO THE WAR IN SUDAN

=======================================================================

                                 MARKUP

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2000

                               __________

                           Serial No. 106-141

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERMENT PRINTING OFFICE
66-787 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                  Courtney Alexander, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 2906, to facilitate famine relief efforts and a 
  comprehensive solution to the war in Sudan.....................     1

                                APPENDIX

Text of H.R. 2906................................................    10
Text of S. 1453..................................................    32

 
  H.R. 2906, TO FACILITATE FAMINE RELIEF EFFORTS AND A COMPREHENSIVE 
                      SOLUTION TO THE WAR IN SUDAN

                              ----------                              


                        THURSDAY, JULY 27, 2000

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:45 p.m. in 
Room 2255, Rayburn House Office Building, Hon. Ed Royce 
(Chairman of the Subcommittee) presiding.
    Mr. Royce. The Subcommittee on Africa meets in open 
session, pursuant to notice, to mark up House Resolution 2906, 
the Sudan Peace Act.
    The Chair lays the bill before the Subcommittee.
    The Clerk will report the title of the bill.
    Ms. Alexander. H.R. 2906, a bill to facilitate famine 
relief efforts and a comprehensive solution to the war in 
Sudan.
    Mr. Royce. Without objection, the first reading of the bill 
is dispensed with.
    The Clerk will read the bill for amendment.
    Ms. Alexander. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, section 1, short title.
    This act may be cited as the ``Sudan Peace Act''.
    Mr. Royce. Without objection, the bill is considered as 
having been read and is open to amendment at any point.
    [H.R. 2906 appears in the appendix.]
    Mr. Royce. Let me just share with the Committee that this 
bill was introduced on September 21, 1999, by Mr. Watts of 
Oklahoma and several co-sponsors, including Mr. Payne on this 
Committee and Mr. Tancredo, and subsequently referred to our 
Subcommittee.
    The Chair would note for the Members that section 
7(a)(4)(A) of the bill, the language of page 11, lines 13 
through 16, are in the jurisdiction of the Committee on Ways 
and Means and are not before the Committee.
    This Subcommittee originated and the House passed a 
resolution last year calling what is going on in Sudan 
genocide. The National Islamic Front government's battle 
against the people of southern Sudan continues to take a 
horrific toll. Over the last 20 years, some 2 million people 
have lost their lives. That is the measure of the tragedy that 
we are dealing with.
    The government also condones the slave trade in Sudan. 
Sudan is one of the most catastrophic human rights situations 
faced in the world today.
    House Resolution 2906 calls for the U.S. to play a leading 
role in trying to resolve this crisis. The scale of the 
suffering there demands this. It also helps to restructure our 
food relief efforts. There are some 1.7 million people in need 
of food assistance in Sudan. Food, as it has been for years, is 
being used as a weapon by the Sudanese government.
    The National Islamic Front announced last week that it 
would not allow relief planes to enter southern Sudan if they 
had taken off from outside the country. No tactic, however 
reprehensible, has been spared. Sudan, which has been a state 
sponsor of terrorism, is a force of destabilization throughout 
eastern Africa.
    Sudan is a very difficult issue on which this Subcommittee 
has held several hearings. There are no easy answers. The 
Senate passed a bill I think last week on this subject, and I 
look forward to working with the administration, with which we 
have been in contact, as this bill progresses to address 
concerns the administration may have.
    If there aren't any other Members seeking recognition, I 
think what we will do at this point is recess for a minute and 
then reconvene.
    [Recess.]
    Mr. Royce. We are going to reconvene at this time; and I am 
going to ask our Ranking Member, Mr. Payne, to make an opening 
statement.
    Mr. Payne. Mr. Chairman, thank you for calling this 
important markup of H.R. 2906, the Sudan Peace Act, introduced 
also by Mr. Watts.
    As we all know, the people of Sudan have suffered for many, 
many years under the brutal dictatorship of the extremist 
National Islamic Front [NIF] government. Over the past decade, 
as we know and probably have heard before, an estimated 2 
million people have died due to famine and war-related causes. 
In 1998 alone it is estimated that 100,000 people died because 
the NIF government denied the United Nations' OLS [Operation 
Lifeline Sudan] humanitarian assistance, much-needed food aid 
to be delivered to needy regions in the south of Sudan.
    In short, more people have died in Sudan than in Bosnia, 
Kosovo, Somalia and the Congo combined.
    This bill reforms Operation Lifeline Sudan and coordinates 
its efforts within the United Nations to revise the terms of 
OLS and to end the veto power of the government of Sudan.
    It expresses support for USAID's Sudan Transition 
Assistance for Rehabilitation, STAR, program for democracy and 
governance.
    It supports planning for air transport and relief flights 
for women and children living near the Nuba Mountains.
    This bill calls on the government of Sudan to end its 
support of slavery. As we debate this bill, many more people 
will die due to the NIF government and its deliberative and 
indiscriminate bombings of civilian targets, including 
hospitals and schools.
    On my several trips there, we saw the destabilization that 
the bombing has done and the threat of bombs coming at any 
time. We were asked to be on our best alertness, because there 
could be the possibility that the Antonovs, old Russian planes, 
might come.
    I always talk about the fact that the chickens here are 
first, and the children watch the chickens, and they run and 
people run for cover. So I certainly would have preferred a 
stronger bill. I support comprehensive sanctions that were 
placed in the 1997 bill.
    I also would have preferred to give direct assistance to 
the National Democratic Alliance, which is made up of a number 
of south Sudanese organizations fighting against the Turabi and 
Bashir government.
    So, with reluctance, I will support this bill, but I do 
think that we are not tough enough on Sudan. We allowed this 
pariah government to continue, but I will at least move this 
forward, and hopefully we can get some tougher language in the 
bill, so the Sudan knows we are serious. In this new 
millennium, we still should not have slavery tolerated. We 
should not have terrorists harbored. We should not have people 
having food used as a weapon.
    But, with that, I will, as I indicated, support this 
legislation. But hopefully at some point we can really get the 
Administration and this Congress serious about ending this 
pariah government.
    Mr. Royce. I thank you, Mr. Payne.
    I think Mr. Tancredo wanted to make an opening statement as 
well.
    Mr. Tancredo. Mr. Chairman, I want to concur with many 
things that my colleague, Mr. Payne, has said about this bill. 
I certainly am glad that we are dealing with the issue because, 
once again, it seems important for us to try and bring this to 
the attention of the American public and even to the 
Administration.
    I mean, the one line I noticed quickly as I scanned the 
bill that someone would perhaps take issue with is parentheses 
4 on the first page where we say that this bill is important 
for continued leadership by the United States. I mean, that 
certainly is something we can challenge, the use of the word 
``continued'' there.
    Some leadership is necessary. It is not just necessary. It 
is, in fact, as is stated, critical. We are trying, sometimes 
it feels we have our hands tied behind us, to force this 
Administration, force this government into providing that 
leadership.
    It is now almost 2 years that I have been dealing with this 
issue. I know that my colleagues here on the Committee, 
especially Mr. Payne has been around much longer, and has much 
greater insight as a result of the length of time he spent both 
on the Committee and with this issue in particular. But I must 
say that it seems incredibly frustrating to me that after all 
that has happened in Sudan, after all the attention that has 
been focused on it by groups around this country, by television 
programs, Touched By An Angel, a very popular program that 
focused one of their entire shows on this issue, this is 
amazing to me that we have not been able to generate more of a 
response than this bill.
    I also know that oftentimes in the Congress we are 
encouraged to take a more moderate approach in any particular 
legislation because there are things happening, on the 
sidelines or behind the scenes and that sort of thing. It gives 
us some rationale to take this kind of a step where you say, 
OK, I know if we go any farther than that we may jeopardize 
some activity. But I know of no other activity in the Sudan. I 
know of nothing happening there that we might jeopardize by 
taking this sort of a weakened step.
    So, again, I just must say I am frustrated by our--I do not 
want to say unwillingness, because I know there are a lot of 
people desiring to do something, but our inability to do more. 
It just seems incredible to me that something more can't be 
done for these people and to bring peace in the region.
    Because what this bill does, Mr. Chairman, I think, 
frankly, is perhaps make the best of a bad situation, but it 
does not change the situation; and we will have to revisit it. 
I know, you all know, everybody knows that this does not mean 
that we now can turn away. I am afraid, to a certain extent, 
that this is exactly what may happen. We have ``the Sudan Peace 
Act,'' and then we walk away from the table saying, well, we 
passed the Sudan Peace Act, for heavens sake. Why isn't there 
peace? I just don't understand that.
    Of course, there isn't peace, because this does so little 
in terms of actually enforcing it. It gives the President all 
the power that he already has. It says, over and over again, we 
approve of this, we encourage you to do that. But, of course, 
we approved of this, we encouraged him to do these things time 
and time and time again. There's nothing that really stops him. 
There's no congressional position that stops the President from 
taking the kind of action we give him in this document--
nothing--absolutely nothing. He could have done it at any time.
    I keep going back--and I absolutely do not mean that this 
is a partisan issue, the fact that Mr. Payne and I, see eye to 
eye on this as an example of that. But I keep going back to the 
comment made by Madeleine Albright when confronted with this. 
She said, in a moment of candor, that perhaps was unsurpassed, 
she said, this is not marketable in the United States. Sudan is 
not marketable in the United States.
    I recognize the political problems that come about as a 
result of trying to identify support for a nation in Africa 
that is the poorest nation on the continent. Perhaps that is 
it. Perhaps that is really it. It is too poor. What can it 
really offer us? What can we really expect?
    Can there be any major corporations wanting to rush in to 
Sudan if peace breaks out? Probably not. As a result, there 
isn't the pressure to do what we did in many other countries, 
many other areas of the world. It is not profitable enough in 
Sudan. How much can we make off of it if we bring peace there? 
If we can't make enough. Why should we push it?
    I mean, that is the kind of mentality I think that 
underlies the lethargy with which we have--I do not want to say 
dealt with the Sudan, because we have not dealt with Sudan. It 
is the best of a bad situation. But it doesn't change the 
situation. For that, I am very, very sorry.
    But I also want to say, Mr. Chairman, Members, I recognize 
fully well that if there is any Member of this Committee that 
could have done more, they would have. It is not because anyone 
sitting here has a desire to keep us from ending this situation 
in a positive way. I know that is true. It is--I guess you are 
just hearing the rantings of a freshman Congressman who is 
trying to deal with the frustrations that this place presents 
him with.
    Mr. Royce. Let me say I appreciate the frustration of the 
gentleman from Colorado. As a matter of fact, I share that 
frustration. I think many of us on this Committee do. We have 
had a string of hearings on Sudan where we have witnessed 
schoolchildren in the audience who have bought slaves back in 
order to try to buy them their freedom.
    I am myself absolutely appalled and astounded that things 
like genocide and slavery can continue as we speak in this 
world today, and so I share your angst over what is happening 
in the Sudan. I think that one of the questions we have, one of 
the tough decisions we have, is whether to move legislation 
which can make it out of the Senate and get to the President's 
desk in order to leverage as much as possible.
    So we are faced with a tough choice, but one choice that we 
can make, that we can move to take up the Senate-passed bill, 
S. 1453, and if we do that, if we do that without objection, we 
can basically set aside H.R. 2906, the House measure, bring up 
the Senate-passed bill, get it from this Committee to the Full 
Committee and to the Floor and to the President's desk and, 
thus, have some impact.
    So that is the tough choice we are faced with, but, if 
there is no objection, that is what I am going to recommend at 
this time, putting aside H.R. 2906.
    Before I do that, I want to recognize my colleague from 
California, Mr. Campbell, if I could, at this time.
    Mr. Campbell. I thank the Chairman.
    I will be supportive of your effort. I want to thank you 
for your leadership. I mean, you have tremendously. You have 
not dropped this ball.
    Second, I want to applaud the passion and depth of 
commitment of all Members of this Committee, but particularly 
of Don Payne and Tom Tancredo. I know you wanted something 
else. That is a fact.
    There will, I think, be a debate in the Full Committee on 
whether we should do that ``something else.'' I want to just 
say that I came to this whole debate late, but there was a 
serious jurisdictional issue Ways and Means might have 
presented keeping us from doing anything.
    So by Mr. Payne's kindness as the representative of the 
minority party on this Committee, we are allowed to advance, 
which, but for his kindness we would not. But when we have that 
debate--and I simply want to say this because, in this one 
respect, possibly, my views are different, I don't want to hide 
them, I am not convinced that embargoes are the right way to 
go.
    I say that having visited Haiti three times in my life. I 
really do wonder whether the embargo we had then during the 
Cedras regime helped or hurt the people we were trying to help, 
got eventually Haiti at least from that tyranny. But when we go 
there afterwards, we see a devastated economy. I wonder, did it 
really affect the powerful? Did it affect the oligarchs? Did it 
affect the families that were running things? I am not sure it 
did.
    But I would take a little bit of convincing embargo is the 
way to go, and I will express that view when we will have full 
debate in Full Committee, and I thank you for your kindness in 
both respects.
    Mr. Royce. I would now, without objection, set aside H.R. 
2906 and call up instead S. 1453.
    The Clerk will report the title.
    Ms. Alexander. S. 1453, an act to facilitate famine relief 
efforts and a comprehensive solution to the war in Sudan.
    Mr. Royce. Without objection, the first reading of the bill 
is dispensed with.
    The Clerk will read the bill for amendment.
    Ms. Alexander. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, section 1, short title.
    This act may be cited as the ``Sudan Peace Act.''
    Mr. Royce. Without objection, the bill is considered as 
having been read and is open to amendment at any point.
    [S. 1453 appears in the appendix.]
    Mr. Royce. I would ask if there are any other Members 
seeking recognition or seeking to offer amendments or wanting 
to make additional comments on the legislation.
    Mr. Tancredo. Mr. Chairman, just that one thing. Let me 
make an initial comment, in order to clear up something else 
that my colleague, Mr. Campbell, mentioned here, my concern 
doesn't rest only with the fact that we do not have sanctions 
in this bill or embargoes. I would go much farther than that.
    I may actually agree with you that embargoes may not be the 
solution. There are things I would like to do much more 
dramatic than even the original bill had in store for it. I do 
want to have the debate when we get to the Full Committee, but 
it will be hopefully with issues even beyond embargoes. It 
wasn't just that thing that I was concerned about.
    Mr. Royce. I would ask now if there is a motion.
    Mr. Campbell. Mr. Chairman.
    Mr. Royce. I recognize the gentleman from California.
    Mr. Campbell. I move the Subcommittee report the bill S. 
1453 favorably to the Full Committee.
    Mr. Royce. Without objection, the motion is agreed to, and 
the question is now on the ayes and noes.
    Mr. Payne. Mr. Chairman, after the bill is passed--I guess 
the meeting is over, but I, too, would like to associate my 
remarks with the gentleman from California. He has indicated 
and I also feel that if there was some way to get a stronger 
piece of legislation at this point through that you certainly 
have demonstrated a very strong interest in trying to be a 
progressive Chairman, and I want to think of a term so that I 
don't hurt you in your district, but I do want to indicate 
that.
    [Laughter.]
    I know that if there was some way to get around this, that 
perhaps you would also want to see it. I know that you want to 
see the situation in Sudan changed just as much as we do. I 
just wanted to put that on the record.
    Mr. Royce. Progressive is deemed a positive term in Orange 
County, CA, Mr. Payne.
    [Laughter.]
    Mr. Payne. OK.
    Mr. Royce. I thank you for those remarks.
    I think we should move to a vote of the ayes and noes. All 
those in favor, say aye. Those opposed.
    The motion is agreed to, and it will advance to Full 
Committee.
    This Subcommittee stands adjourned.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             July 27, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6787.001
    
    [GRAPHIC] [TIFF OMITTED] T6787.002
    
    [GRAPHIC] [TIFF OMITTED] T6787.003
    
    [GRAPHIC] [TIFF OMITTED] T6787.004
    
    [GRAPHIC] [TIFF OMITTED] T6787.005
    
    [GRAPHIC] [TIFF OMITTED] T6787.006
    
    [GRAPHIC] [TIFF OMITTED] T6787.007
    
    [GRAPHIC] [TIFF OMITTED] T6787.008
    
    [GRAPHIC] [TIFF OMITTED] T6787.009
    
    [GRAPHIC] [TIFF OMITTED] T6787.010
    
    [GRAPHIC] [TIFF OMITTED] T6787.011
    
    [GRAPHIC] [TIFF OMITTED] T6787.012
    
    [GRAPHIC] [TIFF OMITTED] T6787.013
    
    [GRAPHIC] [TIFF OMITTED] T6787.014
    
    [GRAPHIC] [TIFF OMITTED] T6787.015
    
    [GRAPHIC] [TIFF OMITTED] T6787.016
    
    [GRAPHIC] [TIFF OMITTED] T6787.017
    
    [GRAPHIC] [TIFF OMITTED] T6787.018
    
    [GRAPHIC] [TIFF OMITTED] T6787.019
    
    [GRAPHIC] [TIFF OMITTED] T6787.020
    
    [GRAPHIC] [TIFF OMITTED] T6787.021
    
    [GRAPHIC] [TIFF OMITTED] T6787.022
    
    [GRAPHIC] [TIFF OMITTED] T6787.023
    
    [GRAPHIC] [TIFF OMITTED] T6787.024
    
    [GRAPHIC] [TIFF OMITTED] T6787.025
    
    [GRAPHIC] [TIFF OMITTED] T6787.026
    
    [GRAPHIC] [TIFF OMITTED] T6787.027
    
    [GRAPHIC] [TIFF OMITTED] T6787.028
    
    [GRAPHIC] [TIFF OMITTED] T6787.029
    
    [GRAPHIC] [TIFF OMITTED] T6787.030
    
    [GRAPHIC] [TIFF OMITTED] T6787.031
    
    [GRAPHIC] [TIFF OMITTED] T6787.032
    
    [GRAPHIC] [TIFF OMITTED] T6787.033
    
    [GRAPHIC] [TIFF OMITTED] T6787.034
    
    [GRAPHIC] [TIFF OMITTED] T6787.035
    
    [GRAPHIC] [TIFF OMITTED] T6787.036
    
    [GRAPHIC] [TIFF OMITTED] T6787.037
    
    [GRAPHIC] [TIFF OMITTED] T6787.038
    
    [GRAPHIC] [TIFF OMITTED] T6787.039
    
    [GRAPHIC] [TIFF OMITTED] T6787.040
    

</pre></body></html>
